»gO -7494
IN THE
SUPREME COURT OF THE UNITED STATES

KIRK A. SIMMONS

(Your Name)

_PE1ffff 1 f* IB
s

VS.
UNITED STATES OF AMERICA

il

mu

— RESPONDENTS)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a iwril of.cagtjiyran
without prepayment of costs and to proceed in forma pauperis.
' ‘ ‘-tU

FEB 1 6 2021

Please check the appropriate boxes:

OFFICE OF THE CLERK
SUPREME COURT, U.S.

□ Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
U.S. District Court for the District of Delaware

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
□ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
□ The appointment was made under the following provision of law:________
or
Q a copy of the order of appointment is appended.
✓

^

(Signature)

Case l:13-cr-00097-LPS Document 14 Filed 09/26/13 Page 1 of 1 PagelD #: 46

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

UNITED STATES OF AMERICA,
Plaintiff,
Criminal Action No. 13-97-1

v.
KIRK SIMMONS,
Defendant.

ORDER
Having considered Defendant Kirk Simmons Joint Motion for the Appointment of the
Federal Public Defender’s Office as Substitute Counsel and to Relieve Current Trial Counsel, IT
^^dayof
2013, that the Federal Public
IS HEREBY ORDERED this
Defender’s office is appointed as attorney of record for Mr. Kirk Simmons and current trial counsel
is relieved.

t

,-e^P. (k

The Honorable Mary Pat Thynge
United States District Court Magtctrata-judge-.

SL

v~A

V.

